                                                               Issue Date
                                                                       February 8, 2011
                                                               Audit Report Number
                                                                        2011-LA-1006




TO:         Maria F. Cremer, Acting Director, San Francisco Office of Community Planning
            and Development, 9AD



FROM:       Tanya E. Schulze, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The City of Mesa, AZ, Needs To Improve Its Procedures for Administering
         Its Neighborhood Stabilization Program Grant

                                   HIGHLIGHTS

 What We Audited and Why

      We audited the City of Mesa’s (grantee) Neighborhood Stabilization Program (NSP1)
      grant.

      The audit was started primarily because the Office of Inspector General’s (OIG) audit
      plan includes objectives to review Housing and Economic Recovery Act grantees and
      because staff from the U.S. Department of Housing and Urban Development’s (HUD)
      Office of Community Planning and Development raised general concerns about the
      nonprofit subgrantee selected by the grantee to administer housing counseling,
      downpayment assistance, and single-family housing acquisition and rehabilitation. The
      grantee awarded $2.8 million (29 percent) of its more than $9.6 million NSP1 grant to
      this entity.

      The objective of the audit was to determine whether the grantee administered its NSP1
      grant in accordance with HUD’s program requirements.
What We Found

     The grantee did not ensure that NSP1 program requirements were met. Specifically, it
     (1) did not implement adequate controls over construction contractor draw requests, (2)
     failed to ensure the eligibility of labor costs claimed by its subrecipient, (3) did not ensure
     that payment and performance bonds were obtained for construction contracts as
     required, (4) charged ineligible employee salary costs to the NSP1 grant, and (5) did not
     properly enforce the program’s continued affordability requirements.


What We Recommend

     We recommend that the Acting Director of the San Francisco Office of Community
     Planning and Development require the grantee to implement procedures to ensure that
     NSP1 requirements are met and reimburse its NSP1 grant for ineligible costs charged to
     the grant.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We received the grantee’s written response to the audit report on February 4, 2011. The
     grantee generally agreed with the audit report finding and described actions it has taken
     or plans to take to address the deficiencies outlined in the audit report

     The complete text of the grantee’s response can be found in appendix B of this report.




                                               2
                            TABLE OF CONTENTS

Background and Objective                                               4

Results of Audit
   Finding: The Grantee Did Not Comply With NSP1 Requirements          5

Scope and Methodology                                                  11

Internal Controls
                                                                       12
Appendixes

   A. Schedule of Questioned Costs and Funds To Be Put to Better Use   13
   B. Auditee Comments                                                 14




                                            3
                        BACKGROUND AND OBJECTIVE

The Neighborhood Stabilization Program (NSP1) was authorized under Division B, Title III, of
the Housing and Economic Recovery Act of 2008 (HERA) and provides grants to all States and
selected local governments on a formula basis. HERA appropriated $3.92 billion in NSP1 funds
for emergency assistance for redevelopment of abandoned and foreclosed-upon and residential
properties. NSP1 was established for the purpose of stabilizing communities that have suffered
from foreclosures and abandonment. Generally, the NSP1 funds must be used to buy,
rehabilitate, and resell foreclosed-upon and abandoned homes. As long as the funds are used for
this purpose, grantees may decide how to use the funds and what specific redevelopment
activities to undertake.

The City of Mesa (grantee) was awarded approximately $9.6 million in NSP1 grant funds. The
grantee’s planned use of the funds is shown in the chart below.

                                   Downpayment        Home buyer
                                    assistance,       counseling,
                   Administration,   $500,000           $98,000             Acquisition
                     $861,665
                                                                          rehabilitation -
            Demolition &                                                      home
           reconstruction,                                                  ownership,
             $1,000,000                                                     $4,600,000


                  Acquisition
                rehabilitation -                                        Grantee's
                    rental,
                                                                     planned use of
                  $2,600,000
                                                                    NSP1 grant funds


As of September 30, 2010, the grantee had drawn down more than $4.7 million in NSP1 funds
and $562,656 in program income. The program funds drawn down represent 49.55 percent of
the total grant.

The grantee’s Neighborhood Services Department was in charge of administering its NSP1
activities. The grantee entered into a subgrantee agreement on July 29, 2009, with Housing Our
Communities, a U.S. Department of Housing and Urban Development (HUD)-approved
nonprofit housing counseling agency. The agreement awarded $2.8 million of the grant to
Housing Our Communities to manage the HUD-certified housing counseling and education
portion of the program, manage the forgivable downpayment loan assistance portion of the
program, and acquire and resell housing in partnership with the grantee.

The objective of the audit was to determine whether the grantee administered its NSP1 grant in
accordance with HUD’s program requirements.




                                                  4
                                     RESULTS OF AUDIT

Finding: The Grantee Did Not Comply With NSP1 Requirements

The grantee’s procedures for administering its NSP1 grant were not adequate to ensure that
HUD’s program requirements were met. The grantee (1) did not maintain adequate controls over
construction contractor draw requests, (2) failed to ensure the eligibility of labor costs claimed
by its subrecipient, (3) did not require payment and performance bonds for construction contracts
as required, (4) charged unsupported employee salary costs to the NSP1 grant, and (5) failed to
properly enforce the program’s continued affordability requirements. These problems occurred
primarily because the grantee’s staff was not sufficiently familiar with the program requirements
related to each deficiency and the grantee’s procedures were not adequate to ensure that program
requirements were met. As a result of the deficiencies, $22,344 in NSP1 funds was used for
ineligible expenses, and a portion of the grantee’s NSP1 grant funds were at risk. Also,
individuals who purchased rehabilitated homes from the grantee could be required to repay
excessive amounts to release the grantee’s liens if they attempt to sell their properties.




    Controls Over Contractor
    Draw Requests Were Not
    Adequate

         The grantee did not implement sufficient controls to ensure that payments to construction
         contractors were adequately supported. Grantee staff responsible for reviewing the draw
         requests estimated the percentage of project completion when approving draw requests
         and did not sufficiently document how the claimed amounts were validated. The draw
         requests did not include an updated schedule of values or other comparison of budgeted
         to actual amounts or activities completed to support the claimed percentage of work
         completed. The files did contain evidence of inspections by a grantee official; however,
         the documentation supporting these inspections did not include sufficient detail to
         support the claimed percentage of completion.

         The grantee’s procedures also did not require construction contractors to approve or
         certify the draw requests. The grantee prepared the draw documentation using forms that
         were signed by the contractors in advance. This procedure circumvented the contractor’s
         signatory approval as a control procedure. These practices were not consistent with
         NSP1 program requirements including Office of Management and Budget (OMB)
         Circular A-871 and 24 CFR (Code of Federal Regulations) 85.20,1 which require grantees
         to adequately document costs and maintain effective internal controls to protect grant

1
 Compliance with OMB Circular No. A-87, OMB Circular No. A-122, and 24 CFR 85.20 is required according to
24 CFR 570 subpart J, compliance with which is required according to the NSP1 notice (Federal Register Volume
73, Number 194, dated October 6, 2008).


                                                      5
     assets. The procedures also did not comply with the grantee’s written policies and
     procedures, which require its staff to validate the claimed percentage of construction
     completion for draw requests by checking off and totaling the amount of completed work
     using the line item budgeted values from the contractor’s bid.

     The grantee staff members responsible for processing the draw requests indicated that
     they were not aware that detailed information was required to support the percentage of
     completion claimed on draw requests. Because the documentation in the files was not
     adequate, supervisory or audit review of the draw request documentation could not
     readily determine whether the percentage of work claimed as completed was
     appropriately determined and reasonable. Therefore, HUD and the grantee did not have
     adequate assurance that payment amounts to construction contractors were determined
     appropriately. Additionally, if amounts claimed are not properly validated, it may create
     unnecessary risk to the program if contractors are paid prematurely and then fail to
     complete the associated work. At the time of our audit, the grantee had 17 construction
     contracts on NSP1 projects for amounts totaling $1,929,959 that were not yet complete
     and would, therefore, be subject to additional risk due to this deficiency.

Subgrantee Salary Costs Were
Not Supported

     The grantee did not ensure that labor costs claimed by its subgrantee were determined in
     accordance with applicable cost principles. OMB Circular A-1221 requires that
     subgrantees account for the actual costs incurred (including direct and indirect salary
     costs) to determine the amount that can be charged to the grant. This circular does not
     include provisions for charging profit or other increments above cost to Federal grants.
     The grantee did not ensure that these requirements were met since it agreed to hourly
     labor rates for subgrantee counseling and construction services but did not ensure that
     these rates were consistent with the subgrantee’s actual costs. Grantee staff members
     stated that they were not aware that subgrantees were required to account for their actual
     costs. Further, it appeared that the amounts billed by the subgrantee for employee salary
     costs did not represent the subgrantee’s actual cost for each employee. Information we
     received from the subgrantee indicated that its housing counselors who worked on the
     NSP1 grant were paid varying salaries; however, the hourly rates billed to the NSP1 grant
     were the same for each employee regardless of his or her salary amount. Therefore, it
     appeared that the amounts billed did not directly correlate to the subgrantee’s actual cost
     for each employee.

     Because the grantee approved draw requests for payment of subgrantee labor expenses
     without properly determining whether the costs were supported, HUD and the grantee did
     not have assurance that the costs were eligible under NSP1 program requirements. At the
     time of our audit fieldwork, the subgrantee had billed the NSP1 $12,939 for counseling
     services and $24,559 for acquisition services.




                                              6
        During the audit, we notified the grantee that its subgrantee labor costs did not appear to
        be adequately supported, and the grantee then requested additional labor cost detail from
        its subgrantee. The information provided was not sufficient to substantiate the amounts
        billed to the grant or to determine the amount of these expenses that was not eligible
        under NSP1 requirements. To determine the amount of ineligible subgrantee labor costs,
        the grantee would need to review detailed payroll documentation from its subgrantee,
        such as time cards and pay stubs, and compare the subgrantee’s actual costs to the
        amounts charged to the grant.

 The Grantee Did Not Require
 Payment and Performance
 Bonds


        The grantee did not ensure that construction contractors obtained payment and
        performance bonds as required. For contracts that exceed the simplified acquisition
        threshold (set at $100,000 during the audit period), HUD regulations at 24 CFR 85.36(h)2
        require that grantees obtain (1) a bid guarantee from each bidder equivalent to 5 percent
        of the bid price, (2) a performance bond on the part of the contractor for 100 percent of
        the contract price, and (3) a payment bond on the part of the contractor for 100 percent of
        the contract price.

        The construction contracts for 10 of the grantee’s NSP1 properties (totaling
        approximately $1.7 million) exceeded the current simplified acquisition threshold, yet the
        grantee did not require contractors for these properties to obtain payment and
        performance bonds. This problem occurred because the grantee’s staff was not familiar
        with the applicable program regulations. As a result, the grantee’s NSP1-funded projects
        were at risk and could be subject to unnecessary costs or liens if subcontractors were not
        paid or if the contractors failed to complete the projects. This risk could be particularly
        significant for the grantee since, as noted above, the grantee did not have adequate
        controls to ensure that the percentage of work claimed as part of the draw requests was
        properly supported. At the time of our audit, construction work was still in progress for
        five of the involved construction contracts valued at approximately $930,000, and,
        therefore, funds associated with these contracts were still at risk due to the lack of
        payment and performance bonds. Further, any future contracts executed by the grantee
        that exceed the simplified acquisition threshold will be at risk if the grantee does not
        implement new procedures to correct this deficiency.




Compliance with 24 CFR 85.36(h) is required according to 24 CFR part 570 subpart J, compliance with which is
required according to the NSP1 notice (Federal Register Volume 73, Number 194, dated October 6, 2008). 24 CFR
85.36(h) states that the awarding agency may accept the bonding policy and requirements of the grantee or
subgrantee provided the awarding agency has made a determination that the awarding agency’s interest is
adequately protected. No exception was provided to the grantee, so this provision for alternate requirements was not
applicable.


                                                         7
  The Grantee Charged Ineligible
  Salary Costs


     The grantee charged ineligible employee salary costs to the NSP1 grant for time spent
     working on other projects that were not related to the NSP1 grant. For the period July
     through September 2009, the grantee initially charged $23,036 (including $3,250 in
     “administrative” costs and $19,787 in “project delivery” costs) to the NSP1 grant for
     hours claimed as having been worked by two of its employees. Then in March 2010, the
     grantee made an accounting adjustment to bill an additional $22,344 in “administrative”
     labor costs to the grant for these employees for this same period. However, information
     obtained from grantee staff indicated that the involved employees worked on other
     projects during this period and did not work the additional hours on the NSP1 grant as
     claimed. Because the involved employees apparently did not work the additional hours
     claimed as part of the accounting adjustment, the added charge of $22,344 was not an
     eligible program expense. This problem occurred because grantee officials did not
     follow program requirements including those specified in OMB Circular A-87, which
     states that direct costs for employee compensation must be for time devoted and
     identified specifically to the performance of the award and that personnel activity reports
     or equivalent documentation is required for employees that work on multiple activities or
     cost objectives.


The Grantee Did Not Properly
Enforce Continued
Affordability Requirements

     The grantee placed excessive liens on NSP1-assisted properties when attempting to
     enforce the program’s continued affordability requirements. These requirements were
     enacted to ensure that assisted properties remained affordable for individuals or families
     that met specified income requirements. For properties that are rehabilitated and sold by
     the grantee, HUD regulations at 24 CFR 92.254(a)(5)(ii)(a)(5) define the amount that is
     subject to recapture by the grantee if a homeowner sells the NSP1-assisted property
     before the defined affordability period expires. It states that the amount subject to
     recapture “includes any HOME [HOME Investment Partnerships Program] assistance
     that reduced the purchase price from fair market value to an affordable price, but
     excludes the amount between the cost of producing the unit and the market value of the
     property (i.e. the development subsidy).”
     The grantee did not comply with these standards because it included the “development
     subsidy” as part of the recapture amount specified in deed restrictions it used to enforce
     the continued affordability requirements. For example, one of the grantee’s single-family
     home purchasers paid the full appraised value of $102,500 for a single-family house and
     received $15,000 in downpayment assistance. In addition to a lien for the downpayment
     assistance amount, the grantee placed a lien on this property for the development subsidy,



                                              8
    which would be approximately $48,200 (47 percent of the property value). Grantee staff
    members stated that they were not aware that the development subsidy should have been
    excluded from the calculated recapture amount. As a result of this deficiency, individuals
    that purchased NSP1-assisted properties at full market value could be subject to
    repayment on excessive liens if they sell the property. Since the borrowers paid full
    market price for the property and did not receive any benefit associated with the
    development subsidy, this practice is inappropriate.

    Additionally, the recorded liens included a definition of the recapture amount, yet did not
    specify the actual amount subject to recapture. Accordingly, when the borrower attempts
    to transfer the property, this omission could create confusion regarding the actual amount
    needed to release the lien and could also potentially limit the enforceability of the lien.

    Based upon cost and appraisal amounts provided by the grantee, the excessive liens for nine
    properties already resold by the grantee totaled approximately $317,000. If the grantee
    continues this practice, excessive liens for the 14 properties that were completed and not yet
    resold will total at least $532,920. If the grantee does not correct this deficiency, there will
    likely be additional excessive lien amounts for the remaining 14 home-ownership units
    under development and any additional units developed using NSP1 program income.

    In another case, the grantee did not properly secure a deed restriction that was needed to
    enforce the NSP1’s continued affordability requirements. The grantee provided $141,610
    in assistance to a homeowner to demolish and rebuild a house. The property
    rehabilitation was started in March of 2010, yet at the time of our audit, the grantee had
    not recorded a deed restriction to ensure that funds would be recaptured as required if the
    property was sold. During the audit, we notified the grantee of this problem and the
    grantee provided us its agreement with the homeowner documenting that the homeowner
    agreed to the resale restrictions in March of 2010. However, because a deed restriction
    was not recorded with the County Recorder’s Office, the NSP1 funds remained at risk
    because there was no assurance that the funds would be recaptured if the property was
    sold or transferred. Further, the amounts specified in the resale restriction documents did
    not account for $23,966 in additional NSP1 assistance used for construction change
    orders and grantee labor costs for this property.

Conclusion

    The grantee did not comply with HUD’s program requirements, and as a result, a portion
    of the grantee’s NSP1 grant funds was at risk, and HUD did not have assurance that
    NSP1 funds were used for eligible costs. Also, individuals that purchased rehabilitated
    homes from the grantee could be subjected to excessive liens. These problems occurred
    because the grantee’s staff was not familiar with the applicable program requirements and
    the grantee did not implement appropriate procedures to ensure that these requirements
    were met.




                                               9
Recommendations

    We recommend that the Acting Director, San Francisco Office of Community Planning
    and Development, require the grantee to

    1A.   Implement adequate controls over construction contractor draw requests including
          procedures to require an updated and detailed schedule of values at the time of
          each draw. Contractors should be required to certify as to the accuracy of the
          draw amount and work claimed as having been completed.

    1B.   Implement procedures to ensure the eligibility of labor costs claimed by its
          subrecipient.

    1C.   Reimburse its NSP1 grant for any ineligible subrecipient labor costs that were
          paid using NSP1 funds. To determine the eligibility of the unsupported costs,
          HUD should require the grantee to provide detailed documentation regarding the
          costs including subgrantee payroll records (such as pay stubs to determine hourly
          rates and time cards to determine the number of hours worked). These records
          should be compared to the amounts billed to the NSP1 grant to determine the
          amount of the unsupported costs that was an not eligible program expense.

    1D.   Implement procedures to require construction contractors to obtain payment and
          performance bonds for contracts that exceed the simplified acquisition threshold
          and reimburse the NSP1 grant using non-Federal funds for any costs that result
          from the grantee’s failure to obtain payment and performance bonds. The
          recommended actions will address the risk of loses from the unexpended balance
          of $186,597 associated with existing contracts.

    1E.   Reimburse the NSP1 grant $22,344 from non-Federal funds for the ineligible
          grantee labor costs that were charged to the NSP1 grant.

    1F.   Implement procedures to ensure that excessive liens are not placed on NSP1-
          assisted properties.

    1G.   Remove the excessive liens that were recorded against its NSP1-assisted
          properties that have already been sold and record appropriate deed restrictions on
          these properties in accordance with HUD program requirements.

    1H.   Take action to ensure the enforceability of the NSP1’s continued affordability
          requirements for the one property that was assisted with $141,610 in NSP1 funds
          and did not have recorded deed restrictions.




                                          10
                         SCOPE AND METHODOLOGY

We performed our audit from August to December 2010 at the grantee’s offices at 20 East Main
Street, Mesa, AZ. The audit covered the period March 2009 to September 2010.

To achieve our objectives, we

       Reviewed HUD handbooks, the Code of Federal Regulations, Federal Registers, OMB
       circulars, and other requirements and directives that govern NSP1.
       Reviewed HUD’s recent monitoring report for the grantee’s HOME program.
       Reviewed grantee accounting records, policies and procedures, and project files.
       Reviewed the grantee’s NSP1 agreement with HUD.
       Reviewed the grantee’s subrecipient agreement with Housing Our Communities.
       Reviewed a nonstatistical sample of four grantee files for properties purchased, rehabilitated,
       and resold by the grantee using NSP1 funds. For these transactions, we evaluated whether
       the property was eligible for program assistance; the applicant was eligible for program
       assistance; contracting procedures were performed as required; and the activity’s expenses
       were eligible and adequately documented and complied with NSP1 requirements.
       Interviewed grantee staff and HUD Office of Community Planning and Development
       program staff.
       Conducted site visits to three rehabilitation properties to confirm their existence and
       evaluate the completeness of the rehabilitation.
       Researched the Lexis-Nexis database and Arizona Corporation Commission Web site for
       possible affiliations and conflicts of interest.
       Researched the Lexis-Nexis database and Maricopa County Recorder’s Web site for
       recorded deeds and mortgages on NSP-assisted properties.
       Examined payment invoices submitted by Housing Our Communities for counseling and
       acquisition services. We examined all of the payment invoices, totaling more than
       $37,000, that were billed for the period March 19 through September 1, 2010.
       Evaluated whether the subgrantee’s labor costs charged complied with OMB requirements.

We were unable to determine the amount of the subgrantee’s ineligible labor costs because detailed
documentation regarding the grantee’s actual cost was not available for us to review and validate at
the time of the audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                 11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

       We determined that the following internal controls were relevant to our audit objective:

                   Policies and procedures to ensure that program activities comply with
                   applicable laws and regulations.
                   Policies and procedures to provide reasonable assurance that funds are used
                   only for authorized purposes.

       We assessed the relevant controls identified above.

       A deficiency in internal control exists when the design or operation of a control does not
       allow management or employees, in the normal course of performing their assigned
       functions, the reasonable opportunity to prevent, detect, or correct (1) impairments to
       effectiveness or efficiency of operations, (2) misstatements in financial or performance
       information, or (3) violations of laws and regulations on a timely basis.

  Significant Deficiency

       Based on our review, we believe that the following item is a significant deficiency:

                   The grantee did not have controls in place to ensure compliance with HUD
                   program requirements related to construction contractor draw requests, cost
                   eligibility, construction contractor bonding, and continued affordability
                   restrictions (see finding 1).




                                                12
                                    APPENDIXES

Appendix A

SCHEDULE OF QUESTIONED COSTS AND FUNDS TO BE PUT
                 TO BETTER USE

                   Recommendation            Ineligible 1/     Funds to be
                          number                               put to better
                                                                      use 2/
                                  1D                             $186,597
                                  1E              $22,344
                                  1H                              $141,610


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.

     The funds to be put to better use for recommendation 1D represent the amount of funds
     not yet expended on incomplete projects with contracts that exceeded the simplified
     acquisition threshold and did not have required payment and performance bonds. These
     funds remain at risk because the grantee did not implement procedures to require
     contractors to obtain payment and performance bonds. Note that the funds associated
     with existing contracts for incomplete projects would also be at risk due to the grantee’s
     insufficient controls over construction contractor draw requests (recommendation 1A);
     however, we did not include an amount in the table above for this recommendation to
     avoid duplicate reporting of the amounts potentially at risk. The funds to be put to better
     use for recommendation 1H represent the amount of NSP1 funds used for the one
     property that did not have recorded deed restrictions necessary to enforce the program’s
     continued affordability requirements.




                                             13
Appendix B

             AUDITEE COMMENTS


                Auditee Comments




                       14
15
16
17
18
